     Management Advisory Report



 Single Audit of the State of New
Hampshire for the Fiscal Year Ended
          June 30, 2012




      A-77-14-00001 | November 2013
Single Audit of the State of New Hampshire for the Fiscal Year
Ended June 30, 2012
A-77-14-00001
November 2013                                                             Office of Audit Report Summary

Objective                                  Finding

To report internal control weaknesses,     The single audit reported that NH-DE did not consistently maintain
noncompliance issues, and                  detailed documentation to support cash draws for DDS
unallowable costs identified in the        administrative expenses. Therefore, the audit could not determine
single audit to Social Security            if NH-DE minimized the time between the cash draws and the
Administration (SSA) for resolution        actual cash outlay for the expenses as required by Federal
action.                                    regulation.

Background                                 Recommendation

KPMG, LLP conducted the single             We recommend SSA verify NH-DE established appropriate
audit of the State of New Hampshire.       procedures to document cash draws.
SSA is responsible for resolving single
audit findings related to its Disability
Insurance program. The Department
of Education (NH-DE) is the New
Hampshire Disability Determination
Services’ (DDS) parent agency.
MEMORANDUM
Date:      November 1, 2013                                                      Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of New Hampshire for the Fiscal Year Ended June 30, 2012
           (A-77-14-00001)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of New Hampshire for the Fiscal Year ended June 30, 2012. 1 Our objective was to report
           internal control weaknesses, noncompliance issues, and unallowable costs identified in the single
           audit to SSA for resolution action.

           KPMG, LLP conducted the audit. The results of the desk review conducted by the Department
           of Health and Human Services (HHS) concluded that the audit met Federal requirements. In
           reporting the results of the single audit, we relied entirely on the internal control and compliance
           work performed by the KPMG, LLP and the reviews conducted by HHS. We conducted our
           review in accordance with the Council of the Inspectors General on Integrity and Efficiency’s
           Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The New Hampshire Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal regulations. The
           DDS is reimbursed for 100 percent of allowable costs. The New Hampshire Department of
           Education (NH-DE) is the New Hampshire DDS’ parent agency.

           The single audit reported that NH-DE did not consistently maintain detailed documentation to
           support cash draws for DDS administrative expenses. 2 Therefore, the audit could not determine



           1
            State of New Hampshire, Single Audit of Federal Financial Assistance Programs for the Year Ended
           June 30, 2012, http://admin.state.nh.us/accounting/FY%2012/Single%20Audit%20for%20web%20posting.pdf (last
           viewed July 2, 2013).
           2
               Id. at finding 2012-57.
Page 2 - Gary S. Hatcher

if NH-DE minimized the time between the cash draws and the actual cash outlay for the
expenses as required by Federal regulation. The corrective action plan indicated NH-DE will
review its policies and accounting system options to find an effective and efficient way to ensure
timely cash draws and maintain supporting documentation.

We recommend SSA verify NH-DE established appropriate procedures to document cash draws.

The single audit also disclosed the timeliness of NH-DE’s cash draws did not comply with the
Treasury-State Agreement. 3 This finding may impact DDS operations although it was not
specifically identified to SSA. I am bringing this matter to your attention as it represents a
potentially serious service delivery and financial control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802 or
Shannon.Agee@ssa.gov.




                                               Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




3
    Id. at finding 2012-58.
Attachments

 Page 1 of 4
Attachments

 Page 2 of 4
Attachments

 Page 3 of 4
Attachments

 Page 4 of 4
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
